AUDIT OF PAYMENTS TO DAMES & MOORE



          Audit Report No. 99-036
             August 17, 1999




         OFFICE OF AUDITS

   OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                            Office of Audits
Washington, D.C. 20434                                                              Office of Inspector General



    DATE:                         August 17, 1999

   MEMORANDUM TO:                 Michael J. Rubino, Associate Director
                                  Acquisition and Corporate Services Branch
                                  Division of Administration



   FROM:                          Steven A. Switzer
                                  Deputy Inspector General

   SUBJECT:                       Audit of Payments to Dames & Moore
                                  (Audit Report Number 99-036)


   The Office of Inspector General (OIG) has completed an audit of payments made to
   Dames & Moore (D&M) under contract 96-01495-C-DR. The Chief, Headquarters Operations Unit,
   Acquisitions Section, Acquisition and Corporate Services Branch (ACSB), requested that the OIG
   review D&M’s billings related to this contract. The Federal Deposit Insurance Corporation (FDIC)
   contracted with D&M on August 27, 1996, to help ensure that the quality of the air, water, and the
   presence of asbestos or radon gas (where applicable) at FDIC occupied facilities met federal, state,
   and local health and environmental regulations and standards. The contract covered 31 occupied
   facilities nationwide.

   BACKGROUND

   The FDIC’s contract with D&M included a combination of fixed-fees for certain elements and labor
   hour pricing for other elements. Fixed-fee elements included such tasks as conducting air and water
   quality tests, preparing reports, and developing operation and maintenance plans. The labor hour
   element consisted of project management time at fixed hourly rates.

   The FDIC executed a contract with D&M on August 27, 1996, with an effective date of
   August 19, 1996. The performance period was August 19, 1996 through July 30, 1998. The FDIC
   ordered environmental services through the issuance of task assignments. Task assignments include
   a description of the work and deliverables, a schedule of performance and completion dates, and
   other provisions necessary to achieve a successful performance. Contract article 1.5.B specifies that
   the contractor is only authorized to incur costs in performing task assignments.

   During the performance of the contract, a number of task assignments were not completed. D&M
   has submitted 27 invoices totaling $120,255 that were outstanding as of April 28, 1999. ACSB is
   awaiting the results of our audit before remitting final payment to D&M.

   On September 18, 1998, the OIG requested that D&M provide original documents (supporting the
   sampled invoices) to be available for review on October 5, 1998. D&M agreed to provide this
information on October 27, 1998. We visited D&M’s offices on October 27, 1998, and found that
this support was still not available for our use. We met with the D&M Manager of Government
Rates/Audit Compliance and discussed workload, the location of support, and the reconciliation
process required to determine the applicable support. We then reached agreement that the original
support would be available to us for review on November 27, 1998. However, on
December 1, 1998, the D&M Manager of Government Rates/Audit Compliance informed us that he
was unable to reconcile the sampled invoices with supporting documentation because the invoices
did not include the names of employees or the dates that services were performed. In addition,
according to the D&M representative, there were instances when the FDIC did not provide an
explanation for costs disallowed from D&M invoices to assist with record keeping.

On December 11, 1998, D&M provided an electronic database containing information recorded in
D&M’s electronic time and billing system, and we began reconstructing the charges for the sampled
task assignments. On March 10, 1999, D&M provided us with schedules that attempted to reconcile
the sampled invoices with the electronic database. We used these schedules to evaluate support for
site labor billed to the FDIC.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine whether invoices submitted by D&M were
(1) adequately supported and (2) allowable under the terms and conditions of the contract. The
FDIC paid D&M $360,722 under contract 96-01495-C-DR from January 1, 1997 through
July 8, 1998. To accomplish our objectives, we judgementally selected 13 task assignments for
which the FDIC paid $192,481 through 34 invoices and 2 claims. Because the invoices did not
identify contractor personnel and time devoted to specific invoices under individual task
assignments, the contractor could not readily provide support for billed amounts. As a result, it was
necessary for us to attempt to reconstruct the underlying charges.

These alternative procedures included obtaining a database of information recorded in D&M’s
electronic time and billing system for costs charged to the FDIC contract. These costs consisted of
employee time charges and subcontractor expenses. We then reviewed support for employee time
charges and subcontractor expenses. This required (1) tracing time charges to either an electronic or
manually prepared time record and (2) tracing subcontractor expenses to vendor invoices. We then
determined whether amounts paid by the FDIC were supported and in compliance with contract
requirements based on charges related to the sampled task assignments.

The electronic and manual records break down employee time into project management labor
and other various direct labor activities related to the performance of a task assignment. The task
assignments provide for unit pricing of services which were to be inclusive of labor, lab fees, and
other expenses. We analyzed the labor charges for allowability in relation to the pricing of the
task assignments.

We did not perform tests of data integrity internal controls associated with D&M's Electronic
Timerecord System (ETS). We consulted with a Defense Contract Audit Agency (DCAA)
auditor who was in the process of performing contract audit work of D&M. Based on
discussions with this auditor, we concluded that D&M's ETS did not contain the minimum



                                                  2
internal controls we considered necessary to preserve data integrity for the period under audit.
Internal controls over data integrity that are deemed critical include (1) unique identifiers and/or
passwords; (2) an access profile for controlling user access; (3) identification of the individual
who entered, changed, or deleted data; (4) an audit trail that identifies dates of entry, change, or
deletion; (5) information that shows the extent of the change or the reason for the deletion; and
(6) provisions for a user identification code or other certification when the information entered is
approved and forwarded for processing of the final invoice. DCAA staff also informed us that
D&M improved controls to correct this situation. Electronic records supporting time billed
accounted for the majority of the labor billed under the FDIC’s contract. To help mitigate this
issue for audit trail purposes, we reviewed manually prepared time sheets where available.

Our audit methodology included the following:

♦    Sampling task assignments 1A, 1B, 1D, 1F, 2A, 3A, 6A, 7A, 8A, 9A, 10A, 11A, and 12A.
♦   Gathering and examining support for the sampled task assignments.
♦   Analyzing the population for duplicate payments.
♦   Visiting the DCAA office in Columbia, Maryland, to interview staff and review DCAA's work
    associated with D&M.
♦   Reviewing FDIC contract monitoring files.
♦   Reviewing pertinent sections of the contract with the FDIC Legal Division and ACSB officials.
♦   Reviewing the timeliness of payments to D&M.
♦   Reviewing invoices for approval, accuracy, and compliance with contract requirements.
♦   Providing ACSB and D&M staff with preliminary findings to verify factual accuracy, solicit
    input into the causes of findings, and assist in developing workable recommendations.
♦   Obtaining a management representation letter from D&M’s Project Manager providing
    assurance of the truth, accuracy, and completeness of information provided by D&M officials
    during the course of the audit.

The audit was conducted in accordance with the Government Auditing Standards issued by the
Comptroller General and included such tests of the accounting records as was considered necessary
under the circumstances. We conducted the audit from August 1998 through May 1999.

RESULTS OF AUDIT

Of the $192,481 in payments sampled, we question a total of $80,504. By performing alternative
procedures, we determined that $16,146 for charges related to the sampled task assignments
were not supported. We also identified $64,358 in labor charges that were not allowable per the
terms of the contract, as shown in table 1.




                                                 3
Table 1: Unallowable Charges under Contract 96-01495-C-DR

                                                                                      Amount
                                 Billing Type                                        Questioned
 Labor charged to air and water quality tests                                              $20,378
 Labor charged to report preparation, peer reviews, and developing an                       22,873
 operation and maintenance plan
 Fees billed or paid in error                                                                 15,792
 Billings in excess of task assignment ceiling                                                 5,315
                                     Total                                                   $64,358
Source: Analysis of files maintained by ACSB and D&M.

Finally, we identified $44,923 paid for services performed by D&M personnel that were
inappropriately assigned to the contract. We are not recommending a disallowance of the
$44,923 since this amount has been captured in findings associated with billings for labor hours
charged to fixed-fee items. To question the amounts again would result in duplication of
questioned costs. However, the $44,923 for inappropriate personnel will be questioned if ACSB
does not disallow questioned costs for labor hours billed to fixed-fee items.

UNSUPPORTED CHARGES

D&M could not provide employee time records and/or subcontractor invoices to support billings
of $16,146. The contract’s audit clause (General Provision number 15, Audit of Records) states
the following at Part C:

        Contractor shall maintain, and the Contracting Officer or any designated
        representatives of the Contracting Officer shall have the right to examine and
        audit, books, records, documents, and other evidence and accounting procedures,
        and practices, regardless of the form (e.g., machine readable media such as disk,
        tape, etc.) or type (e.g., data bases, applications software, data base management
        software, utilities, etc.) sufficient to reflect properly all costs claimed to have been
        incurred in performing this Contract….

The audit clause further states at Part E. that the Contractor is to make these materials available
until 3 years after final payment under the Contract.

Recommendation

The Associate Director, ACSB, Division of Administration (DOA), should:

(1) Disallow $16,146 for unsupported time and subcontractor billings.




                                                   4
UNALLOWABLE CHARGES

We identified several instances in which D&M billed unallowable charges. These unallowable
charges included labor hours billed for fixed-fee items. This labor was billed in addition to amounts
billed for project management labor for each task assignment. We also identified billing errors such
as unauthorized rush rates, billings for an excessive number of tests, the use of unauthorized
subcontractors, excessive contract rates, and amounts paid in error by the FDIC. Finally, we
identified billings in excess of task assignment ceilings and inappropriate personnel used to staff
task assignments.

Unallowable Labor Charged to Air and Water Quality Tests

D&M billed a total of $93,481 for costs associated with air and water quality tests. Of this
amount, D&M appropriately billed the FDIC $49,174. D&M also billed $20,378 for labor
charged to air and water quality testing. Finally, D&M billed an additional $23,928 for project
management labor to complete these tasks. Labor hours are not billable for time charged to air
and water quality testing. The invoices submitted by D&M and accepted by the FDIC did not
provide a description of services performed. As a result, the FDIC could not identify billings for
labor charged to air and water quality testing.

According to personnel from ACSB, task assignments issued by the FDIC provided for unit
pricing of these services. This method of pricing is inclusive of lab fees, labor, and any other
expenses associated with performing these services. Therefore, the task assignments prohibited
D&M from submitting a separate bill for labor hours charged to air and water quality testing
(other than charges for project management labor). We did not question labor charged to project
management. Table 2 summarizes our analysis of billings for these tests.

Table 2: Unit Charges, Unallowable Labor Charged to Air and Water Quality Tests, and
Project Management Labor

   Task                                                           Labor Charged to
Assignment      Air and Water Unit       Labor Charged to Air          Project
    No.              Charges              and Water Testing         Management             Total
     1A                   $6,670.76                 $3,411.00             $3,235.50       $13,317.26
     2A                    7,428.76                  2,085.00               1,503.00       11,016.76
     3A                    7,968.76                  3,325.00               1,269.00       12,562.76
     6A                    3,309.76                  2,895.00               3,346.00        9,550.76
     7A                    6,142.76                  2,277.50                 557.50        8,977.76
     8A                    4,013.00                  1,380.00               1,624.50        7,017.50
     9A                    4,353.00                  1,210.00               2,270.00        7,833.00
    10A                    2,441.50                  1,365.00               3,540.00        7,346.50
    11A                    4,151.00                  2,055.00               4,390.00       10,596.00
    12A                    2,695.00                     375.00              2,192.50        5,262.50
        Total            $49,174.30                $20,378.50            $23,928.00       $93,480.80
Source: Analysis of files maintained by ACSB and D&M




                                                   5
Recommendation:

The Associate Director, ACSB, DOA, should:

(2) Disallow $20,378 for non-project management labor associated with air and water quality
    testing.

Unallowable Labor Charged to Fixed-Fee Items

D&M billed the FDIC $41,468 for report preparation, peer reviews, and the development of an
operation and maintenance plan. According to the contract, these are fixed-fee items (with not-
to-exceed ceilings), and D&M billed the maximum allowable for each. However, D&M billed
an additional $22,873 for labor hours charged to these fixed-fee items. The task assignment
prohibited D&M from submitting a separate bill for labor hours charged to fixed-fee items.
When D&M submitted the invoices to the FDIC, the invoices did not provide a description of
services performed. As a result, the FDIC could not identify that D&M was billing for labor
charged to report preparation, peer reviews, and the development of an operation and
maintenance plan – clearly fixed-fee items under the contract. FDIC accepted the billings as
submitted. Table 3 shows the fixed-fee charges and unallowable labor charges by task
assignment.

 Table 3: Fixed-Fees Charged for Report Preparation, Peer Reviews, and the Development of
                an Operation and Maintenance Plan and Unallowable Labor

                       Task
                    Assignment                                         Labor
                        No.              Fixed-Fee Charges            Charges            Total
                        1A                        $5,445.00           $5,891.00        $11,336.00
                         1B                          250.00               370.00           620.00
                        2A                         3,180.00            3,133.50          6,313.50
                        3A                         3,780.00            3,197.50          6,977.50
                        6A                         6,000.00            1,030.00          7,030.00
                        7A                         5,295.00            2,685.00          7,980.00
                        8A                         4,050.00            2,141.00          6,191.00
                        9A                         3,720.00               435.00         4,155.00
                        10A                        1,500.00             1,638.00         3,138.00
                        11A                        4,500.00            1,210.00          5,710.00
                        12A                        3,747.50            1,141.50          4,889.00
                            Total               $41,467.50           $22,872.50        $64,340.00
Note: Project management labor not included in this table since it is already reflected in table 1.
Source: Analysis of files maintained by ACSB and D&M




                                                           6
Recommendation:

The Associate Director, ACSB, DOA, should:

(3) Disallow $22,873 for labor associated with fixed-fee tasks of report preparation, peer review,
and developing an operation and maintenance plan.

Fees Billed or Paid in Error

The FDIC paid $15,792 to D&M for fees billed or paid in error. D&M billed in excess of
authorized rates for report preparation, safety codes, and labor categories. D&M billed for
unauthorized rush rates, rush rates when rush deadlines were not met, and, in one instance, for
too many tests. Also, D&M billed for an unauthorized subcontractor and a labor category not in
the contract. Finally, on two occasions, the FDIC paid for lab fee amounts not charged by D&M.
Table 4 below details the amounts billed in error and the related task assignments.

Table 4: Fees Billed or Paid in Error

            Rush                 In Excess                 In Excess    Labor      Rates In    Amounts
            Rates     Rush           of        Unauth.         of      Category    Excess of    Paid in
  Task       Not     Deadline    Allowable       Sub-      Authori.     not in     Contract    Error by
 Assign.   Author.   Not Met     # of Tests   contractor    Amount     Contract     Rates       FDIC         Total
   1A      $765.00   $1,015.00     $126.00                                                                  $1,906.00
   1D                                          $2,300.00    $350.00                                          2,650.00
   2A                  619.00                                                                                  619.00
   3A                  618.76                                                                                  618.76
   6A                                                       3,000.00                            $933.00      3,933.00
   7A                                                       2,295.00                            1,443.76     3,738.76
   1G                                                                   $880.00    $1,120.00                 2,000.00
   1H                                                                    275.00                                275.00
  14D                                                                                  51.00                    51.00
   Total   $765.00   $2,252.76     $126.00     $2,300.00   $5,645.00   $1,155.00   $1,171.00   $2,376.76   $15,791.52
Source: Analysis of files maintained by ACSB and D&M

Recommendation

The Associate Director, ACSB, DOA, should:

(3) Disallow $15,792 for erroneous billings and payments.

Billings in Excess of Task Assignment Ceiling

The FDIC paid D&M $61,833 for labor hours in excess of those authorized under the task
assignments. There was no documentation in the Contracting Officer or Oversight Manager files
showing that D&M requested approval for additional hours to complete the assigned tasks. This
resulted in D&M exceeding the ceiling in 3 of the 13 selected task assignments by $5,315.

Contract section 1.5.A provides that the Oversight Manager will issue task assignments. Section
1.5.B provides that the Contractor shall incur costs under this contract only in performance of task


                                                       7
assignments issued in accordance with the task assignment procedures. No other costs are
authorized without prior express written consent of the Contracting Officer. Section 1.5.F provides
that the contractor shall not incur costs for any “Labor Rates” or “Tests” in article IV,
“Compensation and Billing,” unless they are authorized in a task assignment issued under this
contract. Any costs incurred without such authorization shall be at the sole risk of the Contractor.

Recommendation

The Associate Director, ACSB, DOA, should:

(5) Disallow $5,315 for payments in excess of task assignment ceilings.

D&M Used Personnel from Inappropriate Labor Categories to Staff Task Assignments

D&M billed the FDIC for services performed by professional staff in labor categories that were
not designated by the task assignments. D&M also billed the FDIC for services performed by
employees lacking qualifications required by the contract. The FDIC paid $44,923 for these
services. We are not recommending disallowance of the monies associated with this finding
since the monies are recommended for disallowance in the findings for labor hour charges
related to fixed-fee items. However, the $44,923 for personnel from inappropriate labor
categories will be questioned if ACSB does not disallow questioned costs for labor hours billed
to fixed-fee items.

The contract dictated the qualifications required for employees in various labor categories. The
task assignments dictated the labor categories required to complete various tasks. We reviewed
employee resumes to evaluate contract compliance. The Chief, Safety and Health Unit, Facilities
Management Section, ACSB, reviewed our findings to determine whether the use of
inappropriate personnel resulted in weaknesses in D&M work products. He concluded that there
were instances in which inferior work products resulted from the use of personnel from
inappropriate labor categories.

CORPORATION COMMENTS AND OIG EVALUATION

On August 2, 1999, the Associate Director, ACSB, provided a written response to the draft
report. The response is presented as Appendix I to this report.

The written response provides the requisites for a management decision on each of the
recommendations in the draft report. The response is not summarized because the actions
planned or already taken are identical to those recommended. We will report questioned costs of
$80,504 (including $16,146 in unsupported costs) in our Semiannual Report to the Congress.




                                                  8
                                                                                          APPENDIX I
FDIC
Federal Deposit Insurance Corporation
Washington, D.C. 20429                                       Division of Administration


DATE:                            August 2, 1999

MEMORANDUM TO:                   Steven A. Switzer
                                 Deputy Inspector General



FROM:                            Michael J. Rubino
                                 Associate Director
                                 Acquisition and Corporate Services Branch

SUBJECT:                         MANAGEMENT DECISION
                                 Draft Report Entitled Audit of Payments to Dames & Moore

The Acquisition and Corporate Services Branch (ACSB) has completed its initial review of the
subject Office of Inspector General (OIG) draft report. Our review focused on those
recommendations in the report that would be entered into the Internal Review Information
System (IRIS). The management decision is presented in three parts: (1) the Executive
Summary; (2) Management Decision detail; and (3) an Office of Internal Control Management
working summary, presented as Exhibit A.

EXECUTIVE SUMMARY

The following table represents an overview of the management decision. A more comprehensive
summary of the decision that details specific areas of agreement or disagreement with the
findings and describes necessary corrective actions, including milestone dates, is presented in the
table below.




                                                  9
 Finding           Finding Description        Questioned   Management    Recovery   Difference
     #                                           Costs      Response     Amount
 1         Unsupported Charges                $16,146      Agree        $16,146     $0
 2         Unallowable Labor Charged to Air
           and Water Quality Tests            $20,378      Agree        $20,378     $0
 3         Unallowable Labor Charged to       $22,873      Agree        $22,873     $0
           Fixed-Fee Items
 4         Fees Billed or Paid in Error       $15,792      Agree        $15,792     $0
 5         Billings in Excess of Task         $ 5,,315     Agree        $ 5,315     $0
           Assignment Ceiling


MANAGEMENT DECISION

FINDING # 1: Unsupported Charges

CONDITION: OIG questioned $16,146 that Dames & Moore (D&M) billed in labor charges
and/or subcontractor costs. The costs were questioned because D&M could not provide support
for the expenses billed.

RECOMMENDATION: The FDIC should disallow $16,146 for unsupported time and
subcontractor billings.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow D&M an opportunity to refute the OIG findings and
provide additional supporting documentation, if available. We will consider whatever
information they have to provide before we decide what amount to seek to recover. Also, in
conjunction with the Division of Legal Services, we will review the circumstances surrounding
this overpayment. We will consider our legal position and determine how much of the
questioned costs to attempt to recover. We will then take appropriate measures to resolve the
questioned costs.

FINDING # 2: Unallowable Labor Charged to Air and Water Quality Tests

CONDITION: D&M inappropriately billed FDIC $20,378 in unallowable labor charges that
were charged to air and water quality tests.

RECOMMENDATION: The FDIC should disallow $20,378 for non-project management
labor associated with air and water quality testing.

MANAGEMENT DECISION: We agree with the recommendation.


                                               10
CORRECTIVE ACTION: We will allow D&M an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.

FINDING # 3: Unallowable Labor Charged to Fixed-Fee Items

CONDITION: D&M billed FDIC $41,468 for report preparation, peer reviews, and the
development of an operation and maintenance plan. Then, D&M billed FDIC an additional
$22,873 for labor hours charged to these fixed-fee items.

RECOMMENDATION: The FDIC should disallow $22,873 for labor associated with fixed-
fee tasks of report preparation, peer review, and developing an operation and maintenance plan.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow D&M an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.

FINDING # 4: Fees Billed or Paid in Error

CONDITION: D&M billed and FDIC paid $15,792 for fees billed or paid in error. D&M
billed in excess of authorized rates for report preparation, safety codes, and labor categories.
D&M billed for unauthorized rush rates, rush rates when rush deadlines were not met, and, in
one instance, for too many tests.

RECOMMENDATION: The FDIC should disallow $15,792 for erroneous billings and
payments.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow D&M an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.




                                                11
FINDING # 5: Billings in Excess of Task Assignment Ceiling

CONDITION: D&M billed and FDIC paid $15,792 for fees billed or paid in error. D&M
billed in excess of authorized rates for report preparation, safety codes, and labor categories.
D&M billed for unauthorized rush rates, rush rates when rush deadlines were not met, and, in
one instance, for too many tests.

RECOMMENDATION: The FDIC should disallow $15,792 for erroneous billings and
payments.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow D&M an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.




cc:    David McDermott
       Howard Furner
       Andrew Nickle
       Mary Rann




                                                12
                                                                        EXHIBIT A

                                   SUMMARY OF ACQUISITION AND CORPORATE SERVICES BRANCH MANAGEMENT DECISIONS



NO.   FINDING DESCRIPTION          QUESTIONED     MANAGE-             DESCRIPTION OF CORRECTIVE ACTION                        EXPECTED         DOCUMENT
                                   COST/OTHER      MENT                                                                      COMPLETION        VERIFYING
                                     FINANCIAL   RESPONSE                                                                       DATE          COMPLETION
                                    ADUSTMENT
                                                            CORRECTIVE ACTION: We will allow D&M an opportunity to
        Unsupported Charges        $16,146       Agree      refute the OIG findings and consider whatever information they   March 31, 2000   Settlement
1                                                                                                                                             Agreement
                                                            have to provide before we decide what amount to seek to
                                                            recover, Also, in conjunction with the Legal Division, we will
                                                            consider the circumstances surrounding this overpayment. We
                                                            will consider our legal position and determine how much of the
                                                            questioned costs to attempt to recover. We will then take
                                                            appropriate measures to resolve the questioned costs.
                                                            CORRECTIVE ACTION: We will allow D&M an opportunity to
2     Unallowable Labor            $20,378       Agree      refute the OIG findings and consider whatever information they   March 31, 2000   Settlement
      Charged to Air and Water                                                                                                                Agreement
      Quality Tests                                         have to provide before we decide what amount to seek to
                                                            recover, Also, in conjunction with the Legal Division, we will
                                                            consider the circumstances surrounding this overpayment. We
                                                            will consider our legal position and determine how much of the
                                                            questioned costs to attempt to recover. We will then take
                                                            appropriate measures to resolve the questioned costs.
                                                            CORRECTIVE ACTION: We will allow D&M an opportunity to
3                                  $22,873       Agree      refute the OIG findings and consider whatever information they   March 31, 2000   Settlement
      Unallowable Labor                                                                                                                       Agreement
      Charged to Fixed Fee                                  have to provide before we decide what amount to seek to
      Items                                                 recover, Also, in conjunction with the Legal Division, we will
                                                            consider the circumstances surrounding this overpayment. We
                                                            will consider our legal position and determine how much of the
                                                            questioned costs to attempt to recover. We will then take
                                                            appropriate measures to resolve the questioned costs.
                                                            CORRECTIVE ACTION: We will allow D&M an opportunity to
4     Fees Billed or Paid in       $15,792       Agree      refute the OIG findings and consider whatever information they   March 31, 2000   Settlement
                                                                                                                                              Agreement
      Error                                                 have to provide before we decide what amount to seek to
                                                            recover, Also, in conjunction with the Legal Division, we will
                                                            consider the circumstances surrounding this overpayment. We
                                                            will consider our legal position and determine how much of the
                                                            questioned costs to attempt to recover. We will then take
                                                            appropriate measures to resolve the questioned costs.
                                                            CORRECTIVE ACTION: We will allow D&M an opportunity to
5                                  $5,315        Agree      refute the OIG findings and consider whatever information they   March 31, 2000   Settlement
      Billings in Excess of Task                                                                                                              Agreement
      Assignment Ceiling                                    have to provide before we decide what amount to seek to
                                                            recover, Also, in conjunction with the Legal Division, we will
                                                            consider the circumstances surrounding this overpayment. We
                                                            will consider our legal position and determine how much of the
                                                            questioned costs to attempt to recover. We will then take
                                                            appropriate measures to resolve the questioned costs.

                                                                          13
                                                                                                                                                         APPENDIX II

                                                      MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the
Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response
must describe for each recommendation

    §   the specific corrective actions already taken, if applicable;
    §   corrective actions to be taken together with the expected completion dates for their implementation; and
    §   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In
the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of
corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management’s written response to our report.




                                                                                 14
                                                                                   Documentation That                    Management
 Rec.                                                               Expected          Will Confirm         Monetary      Decision: Yes
Number       Corrective Action: Taken or Planned/Status          Completion Date      Final Action         Benefits         or No
         The Associate Director, ACSB, agreed with the                                                      $16,146
         recommendation. He will allow D&M an opportunity to
  1                                                              March 31, 2000    Settlement Agreement   (unsupported       Yes
         refute the findings and consider whatever information
         D&M provides before deciding what amount to recover.                                                costs)
         The Associate Director, ACSB, agreed with the                                                      $20,378
         recommendation. He will allow D&M an opportunity to
  2                                                              March 31, 2000    Settlement Agreement   (disallowed        Yes
         refute the findings and consider whatever information
         D&M provides before deciding what amount to recover.                                                costs)
         The Associate Director, ACSB, agreed with the                                                      $22,873
         recommendation. He will allow D&M an opportunity to
  3                                                              March 31, 2000    Settlement Agreement   (disallowed        Yes
         refute the findings and consider whatever information
         D&M provides before deciding what amount to recover.                                                costs)
         The Associate Director, ACSB, agreed with the                                                      $15,792
         recommendation. He will allow D&M an opportunity to
  4                                                              March 31, 2000    Settlement Agreement   (disallowed        Yes
         refute the findings and consider whatever information
         D&M provides before deciding what amount to recover.                                                costs)
         The Associate Director, ACSB, agreed with the                                                      $5,315
         recommendation. He will allow D&M an opportunity to
  5                                                              March 31, 2000    Settlement Agreement   (disallowed        Yes
         refute the findings and consider whatever information
         D&M provides before deciding what amount to recover.                                                costs)




                                                                   15
